                                                                             Report No. DODIG-2013-143




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 30, 2013




                     Allegations Unsubstantiated
                     Concerning Defense Logistics
                     Agency Violation of Federal
                     Guidance for the Maintenance,
                     Repair, and Operations Contracts




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Allegations Unsubstantiated Concerning Defense
                                       Logistics Agency Violation of Federal Guidance for
                                       the Maintenance, Repair, and Operations Contracts


September 30, 2013                                     What We Did Continued

What We Did                                            In addition, the complainant alleged DLA Troop Support issued
                                                       supply contracts that did not have contract administration
We performed this audit in response                    and allowed the contractor to perform inherently
to a complaint that the Government                     governmental functions.
Accountability Office forwarded to the
Department of Defense Office of Inspector
General on February 3, 2011. Our objective             What We Found
was to determine whether the Defense                   The allegations were not substantiated, and DLA Troop Support
Logistics Agency (DLA) Troop Support violated          personnel did not violate Federal guidance as indicated in
Federal laws and regulations cited in the              the allegations forwarded to the Defense Hotline. Specifically,
allegation forwarded to the Defense Hotline.           DLA Troop Support personnel did not violate the Competition
Also, we evaluated whether DLA Troop                   in Contracting Act, Buy American Act, National Defense
Support allowed the contractor to perform              Authorization Act, Antideficiency Act, and the Davis-Bacon Act
inherently governmental functions for the              when awarding and administering six Maintenance, Repair,
six Maintenance, Repair, and Operations                and Operations contracts. In addition, DLA Troop Support
contracts, valued at $3.3 billion, cited in            did not allow the contractor to perform inherently
the allegation. Specifically, the complainant          governmental functions.
alleged DLA Troop Support violated:

   •	 Competition in Contracting Act of 1984           Management Comments
      (codified in relevant part at section 2304,      No response to this report was required, and none was received.
      title 10, United States Code [2011]);            Therefore, we are publishing this report in final form.
   •	 Buy American Act (section 8301‑8305,
      title 41, United States Code, “Buy
      American” [2011]);

   •	 Public Law 112-81, “National Defense
      Authorization Act for Fiscal Year 2012;”

   •	 Antideficiency Act (sections 1341, 1342,
      and 1517, title 31, United States Code,
      “Money and Finance” [2012]); and

   •	 Davis-Bacon Act (section 3141-3148,
      title 40, United States Code, “Wage Rate
      Requirements” [2002]).


Visit us on the web at www.dodig.mil


                                                                          DODIG-2013-143 (Project No. D2012-D000LG-0166.000) │ i
                                               INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                              4800 MARK CENTER DRIVE
                                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                                         September 30, 2013

              MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
              	                 COMMANDER, DEFENSE LOGISTICS AGENCY
              		 TROOP SUPPORT

              SUBJECT:	 Allegations Unsubstantiated Concerning Defense Logistics Agency
              	         Violation of Federal Guidance for the Maintenance, Repair, and Operations
              	         Contracts (Report No. DODIG-2013-143)

              We are providing this report for review. We performed this audit in response to a complaint
              that the Government Accountability Office forwarded to the Department of Defense Office of
              Inspector General on February 3, 2011. Defense Logistics Agency Troop Support personnel
              did not violate Federal guidance as indicated in the allegation made to Defense Hotline.
              In addition, Defense Logistics Agency Troop Support did not allow the contractor to perform
              inherently governmental functions. We considered management comments on a discussion
              draft of this report in preparing the final and revised the report as appropriate. No written
              response to this report was required, and none was received.

              We appreciate the courtesies extended to the staff. Please direct questions to me at
              (703) 604-8866 (DSN 664-8866). If you desire, we will provide a formal briefing on the results.




              	                                            Alice F. Carey
              	                                            Assistant Inspector General
              	                                            Readiness, Operations, and Support




ii │ DODIG-2013-143
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls_____________________________________________________________________5

Unsubstantiated Allegations Concerning
Violations of Contract Laws and Regulations_ ___________________6
Full and Open Competition Exercised for Contracts_ _________________________________________6
Appropriate Clause Included to Procure Commercial-off-the-Shelf Items_ _________________9
Acquired Items and Services Complied With Federal Guidance _ _________________________ 10
Purchase of Warranty Does Not Violate Federal Guidance ________________________________ 11
Clause Included Was Appropriate for Supply Contracts
With Construction-Related Work_____________________________________________________________ 12
Contractor Did Not Perform Inherently Governmental Functions _________________________ 13
Summary_ ______________________________________________________________________________________ 18

Appendixes
Appendix A. Scope and Methodology _ ______________________________________________________ 19
     Use of Computer-Processed Data ______________________________________________________ 21
     Use of Technical Assistance______________________________________________________________ 23
     Prior Coverage____________________________________________________________________________ 23
Appendix B. Storefront and Nonstorefront Operations_ ___________________________________ 24
Appendix C. Contract Management Plan Oversight Procedures___________________________ 26

Acronyms and Abbreviations______________________________________________ 28




                                                                                                   DODIG-2013-143 │ iii
                                                                                                                             Introduction




Introduction
Objective
Our objective was to determine whether the Defense Logistics Agency (DLA)
Troop Support violated Federal laws and regulations cited in the allegation
forwarded to the Defense Hotline. Also, we evaluated whether DLA Troop Support
allowed the contractor to perform responsibilities that were inherently governmental
functions. See Appendix A for a discussion of our scope and methodology as well
as prior audit coverage.


Background
We performed this audit in response to a complaint that the Government Accountability
Office forwarded to the Department of Defense Office of Inspector General on
February 3, 2011. The complainant alleged that DLA Troop Support violated multiple
laws and regulations.                Specifically, the complainant alleged DLA Troop Support
violated the:

              •	 Competition in Contracting Act of 1984 (CICA) (codified in relevant part at
                 section 2304, title 10, United States Code [2011]);

              •	 Buy American Act (section 8301-8305, title 41, United States Code, “Buy
                 American” [2011]);

              •	 National Defense Authorization Act (NDAA) (Public Law 112-81, “National
                 Defense Authorization Act for Fiscal Year 2012”);

              •	 Antideficiency Act (ADA) (sections 1341, 1342, and 1517, title 31, United
                 States Code, “Money and Finance” [2012]); and

              •	 Davis-Bacon Act (section 3141-3148, title 40, United States Code, “Wage Rate
                 and Requirements” [2002]).

In addition, the complainant alleged DLA Troop Support issued supply contracts that
did not have contract administration and allowed the contractor to perform inherently
governmental functions, such as:

              •	 working with DoD end users to define their requirements,1


	1	
      According to DLA Troop Support personnel, end user requirements represent a need-to-order Maintenance, Repair and
      Operations supplies or related incidental services from the prime vendor.




                                                                                                                          DODIG-2013-143 │ 1
Introduction



                             •	 training end users on the Military Standard Requisitioning and Issue
                                 Procedures (MILSTRIP) system,2 and

                             •	 soliciting quotes and proposals from other companies and identifying sources
                                 of supplies.

                 The complainant identified six Maintenance, Repair, and Operations (MRO) contracts
                 that DLA Troop Support awarded to a contractor in six regions (Southeast, Pacific,
                 Northeast, Southwest, South Central, and Northwest). See Appendix A for guidance
                 used during the audit.


                 Program Provided Materiel and Incidental Services to
                 End Users
                 According to DLA Troop Support personnel, the MRO program started in 1995.
                 The MRO program is a multi-billion dollar Tailored Vendor Relationship Program that
                 DLA Troop Support managed.                      DLA Troop Support used prime vendor3 long-term
                 sustainment contracts to provide materiel needed to support the MRO of DoD facilities.
                 The primary purpose of the program was to provide regional prime vendor support
                 for public works and facilities-maintenance requirements by providing any item and
                 requested incidental services4 necessary to meet their requirements. The program
                 was comprised of customer oriented teams that implement regional prime vendor
                 contracts with integrated suppliers to provide optimal supply support to military or
                 Government installations in worldwide locations.                               DLA Troop Support contracted
                 with multiple prime vendors to supply a wide range of commercial-off-the-shelf
                 materiel directly to DLA end users on a just-in-time basis. The end users include the
                 Services, Defense suppliers, and Federal agencies located at more than 200 facilities
                 and over 40 countries. The prime vendor program was designed to permit facility
                 maintenance activities to order MRO supplies directly from integrated supply
                 chain contractors.




                 	2	
                     MILSTRIP prescribe uniform procedures, data elements and codes, formats, forms, and time standards for the interchange
                     of logistics information relating to requisitioning, supply advice, supply status, materiel issue or receipt, lateral
                     redistribution, and materiel return processes.
                 	3	
                     A prime vendor acts as a distributor who provides a commercial product or item and incidental services to end users in an
                     assigned region or area of responsibility.
                 	4	
                     According to DLA Troop Support personnel, incidental service is an installation of a procured item requested by the end
                     user that is of a minor, casual, or subordinate nature that does not exceed 25 percent of the cost of the item.




2 │ DODIG-2013-143
                                                                                                                                    Introduction



Contracts Awarded for Facilities-Maintenance Supplies
and Services
DLA Troop Support contracting office personnel awarded six regional prime
vendor maintenance supply indefinite-delivery indefinite-quantity contracts, valued
at $3.3  billion, to the contractor for MRO supplies and incidental services. DLA Troop
Support contracting office personnel awarded the MRO contracts between July 2002
and August 2004 with a 2-year base period and eight options. Table 1 shows the value
and the award date for the MRO contracts awarded within the assigned regions.

Table 1. DLA Troop Support MRO Contracts Awarded
                                                                         Maximum
            Region                        Contract                     Contract Value                    Award Date
                                                                         (in billions)
  Southeast                        SPM500-02-D-0121                            $1.1                        July 18, 2002
  Pacific                          SPM500-04-D-BP06                             0.5                       March 1, 2004
  Northeast                        SPM500-04-D-BP24                             0.5                    August 31, 2004
  Southwest                        SPM500-04-D-BP08                             0.6                  February 18, 2004
  South Central                    SPM500-04-D-BP12                             0.3                       April 30, 2004
  Northwest                        SPM500-04-D-BP15                             0.3                        May 19, 2004
  Total                                                                       $3.3*
*Due to rounding, the maximum contract value total differs from the actual contracts value total.


Under these contracts, DLA Troop Support had a contractual relationship with
the contractor to supply facilities-maintenance requirements.                                     The contractor was
responsible for providing facilities-maintenance supplies for areas, such as heating,
ventilation, and air conditioning; refrigeration; lumber; plumbing; electrical; hardware;
paint; assorted fixtures; landscape and ground; prefabricated structures; and other
commercial supplies.                 The contractor also provided incidental services related to
the procurement of these supplies.                            To fulfill end users’ facilities-maintenance
requirements, the contractor explained that they solicited competitive quotes
from suppliers through its vendor database5 to determine who could satisfy the
requirements. Once the contractor fulfilled end user requirements, DLA Troop Support
billed or recorded a receivable to the end users, and DLA Troop Support paid the
contractor for supplies delivered.




	 5	
       According to the contractor, the vendor database was comprised of thousands of potential suppliers and sources that the
       contractor developed.




                                                                                                                                 DODIG-2013-143 │ 3
Introduction



                 Ordering Process for Procurement of Supplies and Services
                 DLA Troop Support established a streamlined ordering process to manage the
                 multibillion-dollar program that provided MRO supplies and incidental services to
                 Federal facilities and agencies. This ordering process supported DLA management
                 effort to verify that checks and balances were in place. The MRO ordering process
                 established procedures for end users to procure MRO supplies and incidental services
                 through the nonstorefront operation.                          According to the contractor, the storefront
                 operation consisted of predetermined inventory negotiated between DLA Troop
                 Support and the contractor.                        Conversely, the nonstorefront inventory was not
                 predetermined, instead the contractor negotiated the inventory with suppliers and
                 used prices that the contracting officer determined were fair and reasonable.

                 The storefront operation consisted of designated contractor-operated stores that
                 allow walk-up and call-in service for MRO onsite end users to acquire facility supplies
                 and materiel. End users stated they submitted their requirements to a MRO liaison
                 who determined and validated, approved, and then submitted the requirement
                 through PurchasePlace.6 After receiving the requirements through PurchasePlace, the
                 contractor personnel stated they performed a physical inventory of the storage lockers
                 for end users, then created a pull order and replenished the stock from the store
                 inventory to maintain adequate stock levels. The contractor replenished the stock
                 based on requisitions that the end users issued. See Appendix B for a discussion on the
                 storefront operation.

                 Regarding the nonstorefront operation, DLA Troop Support personnel stated the end
                 user requests commercial or commercially modified items that fall within the scope
                 of the MRO program with requested incidental services. Similar to the storefront
                 operation, the end user provides all requirements through PurchasePlace. The contractor
                 solicits, at minimum, two quotes and competes to the subcontractor level. The contractor
                 evaluates, ranks the quotes, and then transmits the sources and quotes to the end user
                 before making a final selection. Once the end user accepts the sources and quotes,
                 the end user either submits a Military Interdepartmental Purchase Request (MIPR)
                 to the contracting officer and Finance Office or routes a MILSTRIP document, through
                 the contracting officer to the contractor. For the MIPR, the contracting officer and the
                 Finance Office review the MIPR for completeness to validate whether the requirements
                 are within the scope and pricing of the MRO program. When the Finance Office accepts
                 the MIPR, the end user obligates funding, then the contractor routes the delivery order7

                 	 6	
                        PurchasePlace was the contractor electronic ordering system that allowed end users to input their requirements.
                 	7	
                        A delivery order number is assigned to each end user when the order is placed.




4 │ DODIG-2013-143
                                                                                                                           Introduction



into the Contracting Officer Portal (KOP) and the Enterprise Business System (EBS)
simultaneously.            For MILSTRIP, the end user provides the contractor an obligated
MILSTRIP number, then the contractor submits the delivery order to EBS. The KOP and
EBS lock the delivery order until the contracting officer makes a fair and reasonable
price determination. Once the contracting officers make a fair and reasonable price
determination, the contracting officer approves the delivery order in KOP and unlocks
EBS. EBS then generates a sales order and purchase order. See Appendix B for a
flowchart of the nonstorefront ordering process.


Contract Management Plan
The Defense Logistics Acquisition Directive (DLAD) Subpart 17.95, “Tailored Logistics
Support Contracting,” requires the approval of a Contract Management Plan (CMP)
before solicitation of tailored logistics support contracts,8 such as MRO prime vendor
contracts. The CMP describes how DLA Troop Support will manage and administer
MRO contracts.              Specifically, the CMP addresses the resources and responsibilities
for conducting contract oversight. The DLA Troop Support, Construction and Equipment
Directorate, is responsible for managing and administering the MRO prime vendor
supply contracts using the CMP.                          The CMP outlines various levels of oversight
procedures, such as pre- and post-award reviews, monthly post-award reviews, and
quarterly and annual reviews. See Appendix C for the levels of oversight provided.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DLA Troop Support internal
controls over contract administration and management were effective as they applied
to the audit objectives. We will provide a copy of the report to the senior official(s)
responsible for internal controls in DLA Troop Support.




	8	
      Tailored logistics support contracting includes prime vendor, modified prime vendor, and other initiatives that
      have characteristics of prime vendor arrangements. This program consists, but is not limited to, MRO supplies,
      Special Operations, and Fire and Emergency.




                                                                                                                        DODIG-2013-143 │ 5
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations




                 Unsubstantiated Allegations Concerning
                 Violations of Contract Laws and Regulations
                 The allegations were not substantiated, and DLA Troop Support personnel did
                 not violate Federal guidance as indicated in the allegations forwarded to the
                 Defense Hotline. Specifically, DLA Troop Support personnel did not violate the CICA,
                 Buy American Act, NDAA, ADA, and Davis-Bacon Act when awarding and
                 administering six MRO contracts. In addition, DLA Troop Support personnel did not
                 allow the contractor to perform inherently governmental functions.



                 Full and Open Competition Exercised for Contracts
                 The complainant alleged MRO contracts, as awarded, violated the CICA by precluding
                 full and open competition. This allegation was not substantiated. DLA Troop Support
                 exercised full and open competition for the six MRO contracts. DLA Troop Support
                 competed the six MRO contracts and properly advertised the proposed contract
                 actions in the Commerce Business Daily9 or on the Governmentwide Point of Entry in
                 accordance with CICA and Federal Acquisition Regulation (FAR) Part 6, “Competition
                 Requirement.” The purpose of the CICA is to encourage competition when awarding
                 Government contracts.                  When procuring supplies or services, this Act requires
                 Federal agencies to enter into Government contracts after obtaining full and open
                 competition in accordance with the FAR. To implement this requirement, FAR Part 6
                 requires contracting officers to promote and provide for full and open competition
                 when soliciting offers and awarding Government contracts through the use of
                 competitive procedures, such as sealed bidding or competitive proposals.                                             Under
                 both competitive procedures, the contracting officer must submit a notice before
                 January 1, 2002, in the Commerce Business Daily and to the Governmentwide Point
                 of Entry effective October 1, 2001, for each proposed contract action expected to
                 exceed $25,000.

                 The MRO acquisition plan shows DLA Troop Support planned for full and open
                 competition for the six MRO base contracts. DLA Troop Support issued a solicitation
                 (Standard Form 1449, “Solicitation/Contract/Order for Commercial Items”) and


                 	9	
                       Commerce Business Daily means the publication of the Secretary of Commerce used to fulfill statutory requirements
                       to publish certain public notices. Agencies were required to publicize notice of proposed contract action under
                       FAR 5.201 in the Commerce Business Daily until January 1, 2002. As of January 1, 2002, the FAR designates Federal
                       Business Opportunities (“FedBizOpps”) as the single point of universal electronic public access to Governmentwide
                       procurement opportunities (the “GovernmentwidePoint of Entry”).




6 │ DODIG-2013-143
                     Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



requested potential offerors to submit competitive proposals for a MRO prime
vendor contract to provide supplies and related incidental services to end users in
six geographical regions.        DLA Troop Support personnel solicited proposals on an
unrestricted basis.    In addition, DLA Troop Support personnel properly publicized
the contract opportunities and proposed contract actions in the Commerce Business
Daily or the Governmentwide Point of Entry to prospective contractors. Further, the
source selection documentation identified the number of proposals that DLA Troop
Support received in response to the solicitations.

DLA Troop Support contracting personnel complied with the FAR by issuing a
synopsis for the six proposed contract actions that required a presolicitation notice
published in the Commerce Business Daily and to the Governmentwide Point of Entry.
FAR Subpart 5.2, “Synopses of Proposed Contract Actions,” required publishing the
synopsis in the Commerce Business Daily or on www.fedbizopps.gov at least 15 days
before issuing a solicitation or proposed contract action that the Government intends
to solicit. For commercial items, the contracting officer may establish a shorter period
for issuing the solicitation and must establish a response time between issuing the
solicitation and receiving proposals that give potential offers a reasonable opportunity
to respond.      DLA Troop Support published the presolicitation notices (synopses),
which showed full and open competition for the six MRO contracts. Each synopsis
included the required data elements, such as the date of the synopsis and the closing
response date. DLA Troop Support allowed an average response time of 58 days
between issuing solicitation and receiving proposals, which provided a reasonable
opportunity for responding to the MRO contract actions for the six regions.                See
Table 2 for the date of the presolicitation notice, solicitation issuance date, and the
closing response date.

Table 2. Publicizing MRO Contract Opportunities
                                        Posted Date of        Solicitation       Closing
    Region            Contract          Presolicitation     Issuance Date     Response Date
                                            Notice
 Southeast        SPM500-02-D-0121      March 20, 2001      May 31, 2001      October 29, 2001
 Pacific          SPM500-04-D-BP06      August 23, 2002    January 31, 2003    March 19, 2003
 Northeast        SPM500-04-D-BP24      January 28, 2003   March 27, 2003         May 8, 2003
 Southwest        SPM500-04-D-BP08      January 30, 2003    April 11, 2003       May 16, 2003
 South Central    SPM500-04-D-BP12      March 25, 2003      April 28, 2003        June 2, 2003
 Northwest        SPM500-04-D-BP15     February 26, 2003    May 14, 2003         June 19, 2003




                                                                                                 DODIG-2013-143 │ 7
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



                 DLA Troop Support personnel received and evaluated between 5 and 11 competitive
                 proposals and offers that potential contractors submitted for each geographical
                 region. The source selection document for all six contracts contained the results of
                 their evaluation of proposals received in response to the solicitation and the
                 source selection authority final decision on awarding the proposal that was most
                 advantageous to the Government.                        DLA Troop Support received offers from small
                 and large businesses. Based on their evaluation of proposals, DLA Troop Support
                 contracting officers awarded a contract for each of the regions. Therefore, DLA Troop
                 Support contracting personnel did not preclude competition or award a sole source
                 contract to the contractor. DLA Troop Support contracting personnel promoted full
                 and open competition and communicated the MRO contracting opportunities to
                 potential contractors.

                 In addition, the complainant stated the contractor may not receive competitive
                 quotes from multiple suppliers to satisfy the purchase of MRO items and services.
                 This allegation was not substantiated. In accordance with the contract, the contractor
                 received multiple quotes for delivery orders in the Northeast region. DLA Troop Support
                 officials stated that the contractor submitted two quotes from potential suppliers
                 and recommended fair and reasonable prices. FAR subpart 15.4, “Contract Pricing”
                 states that price competition is adequate when two or more offers are submitted
                 and the contract is awarded to the best value offeror.                                 Prime vendors must seek
                 competition to the maximum extent practicable for purchases of supplies and services
                 as required by the DLAD. The MRO contract requires the prime vendor to solicit
                 competitive quotes from at least two independent subcontractors for all purchases
                 above the micro-purchase threshold.10 If two or more suppliers or subcontractors
                 quotes are not available, the prime vendor must provide supporting documentation
                 for its rationale and determination.

                 If the contractor did not provide two competitive quotes, DLA Troop Support
                 contracting personnel stated that they would request additional supporting price
                 documentation and the rationale for not obtaining two competitive quotes.                                                  In
                 addition, contractor personnel stated that they received a minimum of two quotes from
                 responsible suppliers that responded to the request for quotes. For 20 delivery orders
                 in the Northeast, DLA Troop Support provided documentation to show the delivery
                 orders were supported by two or more price quotes and the majority was awarded to
                 the supplier with the lowest price for line items with a value exceeding $2,500. Also,

                 	10	
                        The MRO contracts were awarded during the period when the micro-purchase threshold for the acquisition of supplies or
                        services was $2,500. On September 28, 2006, Section 807 of the Ronald W. Reagan National Defense Authorization Act for
                        Fiscal Year 2005 (Public Law 108-375) increased the micro-purchase threshold from $2,500 to $3,000.




8 │ DODIG-2013-143
                    Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



none of the delivery orders was a sole source award for line items with a value
exceeding $2,500. We did not evaluate whether the contractor price quotes were
higher than the market prices for items and services procured for the delivery orders;
however, the contractor solicited and received competitive quotes from different
suppliers or subcontractors to fill orders for end users.


Appropriate Clause Included to Procure
Commercial-off-the-Shelf Items
The complainant alleged DLA Troop Support personnel possibly violated the
Buy American Act by not including the clause in MRO contracts. This allegation was
not substantiated.      The complainant did not identify specific items in the
allegation, but we reviewed applicable criteria in the FAR and the Defense Federal
Acquisition Regulation Supplement to determine if the correct clause was included in
the contracts. DLA Troop Support personnel did not include the Buy American Act
clause in five of the six base contracts awarded.           Instead, DLA Troop Support
personnel included the Defense Federal Acquisition Regulation clause 252.225-7021,
“Trade Agreements” October 2002, which allows DLA to procure commercial-off-
the-shelf items that are U.S.-made or from a designated or qualifying country.
Subsequently, on August 6, 2007, the remaining contract was modified to include the
Trade Agreements Act.

Defense Federal Acquisition Regulation Supplement Subpart 225.11, “Solicitation
Provisions    and    Contract    Clauses,”   December       20,   2002,   requires   using
clause 252.225-7021 if the acquisition was subject to the Trade Agreements Act
(Congress approved the Agreement on Government Procurement in the Trade
Agreements Act of 1979 [title 19, United States Code, section 2501, et seq.], and as
amended by the Uruguay Round Agreements Act [Pub. L. 103-465]).                The Trade
Agreements Act waives the Buy American Act for some foreign supplies and
construction materials from certain countries.        Under the Trade Agreements Act,
only U.S.-made end products or eligible products may be acquired. The value of the
acquisition is a determining factor when applying the Trade Agreements Act. When
DLA Troop Support personnel awarded the MRO contracts, the Trade Agreements
Act applied to an acquisition for supplies or services if the estimated value of the
acquisition was $169,000 or more.         Therefore, it was acceptable for DLA Troop
Support personnel to include the Trade Agreements Act clause in the MRO contracts.




                                                                                         DODIG-2013-143 │ 9
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



                 In addition, DLA Troop Support personnel stated that they did not include the
                 Buy American Act clause in MRO contracts because the end users requested unique
                 items that the United States does not always produce or manufacture.        The DLA
                 Troop Support CMP, change 7, requires contracting officers to manage and administer
                 MRO contracts to ensure compliance with the Trade Agreements Act and all
                 applicable Appropriations Act restrictions.   The contracting officers included the
                 applicable contract clauses in the Northeast contract, but DLA Troop Support
                 personnel stated the contractor was also contractually responsible for verifying all
                 materiel compliance with the clauses. According to contractor personnel, this function
                 was performed by conducting market research analysis. Additionally, the contractor
                 included a statement and the applicable clause in potential suppliers’ responses to
                 the request for quotes. While it was determined that the contractor took actions to
                 comply with the applicable contract clauses, we did not assess whether the supplies
                 that the end users requested were actually U.S.-made or from a designated or
                 qualifying country.


                 Acquired Items and Services Complied With
                 Federal Guidance
                 The complainant alleged DLA Troop Support violated the NDAA by procuring items
                 that were not for national Defense purposes. This allegation was not substantiated
                 based on our review of one of the six MRO supply contracts awarded. The purpose
                 of the NDAA is to authorize appropriations for each fiscal year for DoD military
                 activities and military construction.   DLA Troop Support is not responsible for
                 acquiring funds to procure requirements generated by the end users; the end user’s
                 Command acquires its funds through the Defense appropriation process.

                 The complainant identified items (for example, a granite counter top, wood cabinets,
                 or a hardwood cherry cover base) from a promotional brochure that the contractor
                 presented to potential end users of the MRO program. Based on our review of the
                 contractor’s usage data from 2010 through 2012, we did not find procurements in
                 the Northeast of the specific nonstorefront items the complainant identified in the
                 promotional brochure.

                 DLA Troop Support personnel stated, and end users in the Northeast agreed, that
                 all items ordered by the end users were in support of their respective base
                 operations, and therefore, were for national Defense purposes. Further, documentation
                 supported the Northeast end users procurement of MRO items, such as 90-ton chillers
                 installed in various buildings on base, packing supplies used to properly package



10 │ DODIG-2013-143
                              Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



items used on aircraft carriers, and equipment needed by a battalion to accomplish
its mission. The documentation showed the items ordered supported base operations
and did not violate the NDAA.


Purchase of Warranty Does Not Violate
Federal Guidance
The complainant alleged that DLA Troop Support personnel violated the ADA
because the contractor performed 5-year maintenance on a Cummins Model
generator under a nonmultiyear contract. Specifically, the complainant stated according
to the promotional brochure, it appeared that DLA Troop Support might use 1-year
Operations and Maintenance funds to procure multiyear arrangements. This allegation
was not substantiated.                   The Defense Financial Management Regulation 7000.14-R,
volume 14, Chapter 2, “Antideficiency Act Violations,” defines an ADA violation, in
part, as an obligation of funds in advance of its availability. The Regulation states,
“agreeing to pay for, or obligating the funds, for a 2-year equipment maintenance
agreement using 1-year authority funds would constitute an ADA violation.”
The contractor’s usage data identified generators purchased in all regions from
companies with the name Cummins.                               However, none of the purchases included a
5-year maintenance agreement as alleged, but instead included warranties for
the items.

Supporting documentation for the Northeast contract proved end users could
include a maintenance warranty when acquiring substantial11 items through the
MRO program, but DLA Troop Support personnel stated the warranty has to be paid
with the initial cost if the item does not come with a standard warranty.                                                     Our
results did not identify any warranty, other than standard warranty, that end users
requested.           There were 29 generators or generator-related items from the usage
data that end users procured for the Northeast. Two of the 29 generators procured
included a standard warranty with one of the two procurements awarded to
Cummins Power Systems.                        The justification report for delivery orders KU99 and
07QW showed the generators included a standard warranty with the requirement,
not a multiyear maintenance agreement. In addition, the accounts receivable report
showed the cost matched the amount in the justification report for generators procured
with a standard warranty.


	11	
       FAR Subpart 22.402, “Applicability,” states that substantial relates to the type and quantity of construction work to be
       performed and not merely to the total value of construction work as compared to the total value of the contract. For
       example, installing heavy generators or large refrigerator systems or plant modification or rearrangement is a substantial
       and segregable amount of construction.




                                                                                                                                    DODIG-2013-143 │ 11
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



                 DLA Troop Support officials and Northeast end users stated that when procuring
                 items with incidental services, the end users, at their discretion, have the option
                 to include a warranty with the item.        However, one end user stated that when
                 incidental services are required (for example, installing chillers), a 1-year warranty
                 comes standard with the start-up package. Therefore, DLA Troop Support did not
                 violate the ADA since maintenance agreements were not performed, but rather the
                 end users purchased substantial items with a standard warranty.


                 Clause Included Was Appropriate for Supply Contracts
                 With Construction-Related Work
                 The complainant stated it was doubtful that a DLA supply contract would have the
                 Davis-Bacon Act labor law clause since supply contracts typically do not include
                 this clause. Although the MRO contracts are supply contracts, FAR Subpart 2.101,
                 “Definitions,” permits DLA Troop Support to include incidental services, and therefore,
                 would require compliance with the Davis-Bacon Act labor law clause. This allegation
                 was not substantiated.

                 The Davis-Bacon Act of 1931 (title 40, United States Code, section 3141, et. seq.)
                 applies to Federal contracts in excess of $2,000 for construction, alteration, or repair
                 performed in the United States on a public building or public works, shall contain a
                 Davis-Bacon Act labor law clause. FAR Subpart 22.402, “Applicability,” requires the
                 application of the Davis-Bacon Act clause in certain non-construction contracts
                 that involve some construction work when a substantial and segregable amount of
                 construction, alteration, or repair is required, such as installing large generators.
                 The incidental services that the contractors performed on the MRO contracts were
                 considered construction-related work because they included the installation or
                 alteration at a public building that were substantial and segregable.

                 The Northeast MRO contract identifies delivery orders that included substantial and
                 segregable construction work, such as purchasing and installing heavy generators and
                 chillers. From 2010 through 2012, end users in the Northeast ordered 29 generators
                 or generator-related items, and 6 of the items included substantial and segregable
                 construction work. In addition, another end user purchased a chiller that included
                 the performance of construction work. Therefore, it was acceptable for DLA Troop
                 Support to include the Davis-Bacon Act labor law clause in the Northeast MRO contract
                 since it included a substantial and segregable amount of construction work.




12 │ DODIG-2013-143
                  Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



Contractor Did Not Perform Inherently
Governmental Functions
In four of the nine allegations, the complainant alleged DLA Troop Support issued
supply contracts that allowed the contractor to perform inherently governmental
functions by assisting DoD end users with defining requirements and not performing
contract administration over the items delivered and services performed for the
requirements. The complainant also alleged the contractor trained end users on the
MILSTRIP system. Further, the complainant alleged DLA Troop Support personnel
allowed the contractor to solicit quotes and proposals from other companies and
identify sources of supply.     The complainant based this allegation solely on
viewing a promotional brochure that the contractor presented to potential end users.
The allegations were not substantiated based on our review of the Northeast
MRO contract.


End Users Defined MRO Requirements Without Assistance
The end users defined their requirements without assistance from the contractor.
The contractor must supply facilities-maintenance requirements according to the
Northeast MRO supply contract, and not define end user requirements.         Also, the
contract allowed the contractor to provide technical support and assistance to the
end users, if requested. DLA Troop Support officials and contractor personnel stated
that end users are responsible for defining their own requirements because they
know their mission needs and budget. Additionally, Northeast end users stated that
the contractor did not assist them with defining their requirements. We reviewed
the “Request for Supplies,” (a document to request MRO items and services) and
determined the end users generated their requirements.

However, if end user requirements were not specific, the contractor would
request additional clarification. For example, Northeast end users and the contractor
personnel explained that if requirements submitted to the contractor were vague or
not brand specific, the contractor personnel would request clarification. Contractor
personnel stated that occasionally they would coordinate site visits with the end users
to allow the subcontractor to verify measurements and obtain additional information
for an accurate proposed estimate. FAR Subpart 7.503(c), “Policy,” provides examples
of functions considered as inherently governmental functions or must be treated as
such.   According to the contract and examples that the contractor and the end
users provided, request for clarifications are not considered an inherently
governmental function.




                                                                                      DODIG-2013-143 │ 13
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



                 In addition to the request for supplies, we reviewed purchase requests, delivery
                 orders, MIPR approvals, and price justification reports from contractor personnel
                 to determine their involvement with defining requirements.      Requirements on the
                 request for supplies matched the requirements on the purchase requests, delivery
                 orders, and MIPR approval document.       Further, the contractor’s price justification
                 reports showed the end user received quotes for those requirements.


                 End Users Performed Contract Administration of Items
                 and Services
                 Northeast end users performed contract administration of items the suppliers
                 delivered and services the contractor performed.      DLA Troop Support personnel
                 stated that they are not responsible for administering items and services that the
                 end users ordered.     Instead, end users verify whether the contractor delivered
                 items and performed services to their satisfaction.    However, DLA Troop Support
                 personnel occasionally conducted in-process reviews and surveys to achieve end user
                 satisfaction. DLA Troop Support discontinued the reviews, at the request of the end
                 users, because there were no issues.

                 According to the Northeast MRO supply contract, the contractor must tender for
                 acceptance those items that conform to contract requirements, and the Government
                 reserves the right to inspect or test any supplies or services that have been tendered
                 for acceptance, which takes place at destination. For example, an end user at Naval
                 Facilities Engineering Command Mid-Atlantic ordered a chiller with the incidental
                 service and provided documentation indicating that the contractor completed the
                 services to the end user satisfaction by informing the contractor through an e-mail.
                 Additionally, end users at Letterkenny Army Depot ordered items and provided
                 documentation indicating that a Government official signed and received the items that
                 the contractor delivered.


                 Contractor Did Not Train End Users on MILSTRIP System
                 The contractor did not train the end users on the MILSTRIP system.         Specifically,
                 the complainant stated according to the promotional brochure, it appeared that the
                 contractor trained end users on the MILSTRIP system. However, the contractor used the
                 brochure as a marketing tool and DLA Troop Support personnel allowed the contractor
                 to market the program to all eligible installations. DLA Troop Support tasked the
                 contractor with developing, publishing, and distributing appropriate publications
                 or marketing material to inform eligible installations about the operation of the
                 MRO prime vendor program. MRO contracts state that the contractor must provide



14 │ DODIG-2013-143
                              Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



the end users with adequate training on contractor electronic ordering entry
system, which is PurchasePlace.                        Although MRO contracts do not provide specific
guidance on the MILSTRIP, DLA Troop Support personnel stated that MILSTRIP is a
Government system and the end users’ Commands are responsible for training, not
the contractor.

Further, we selected six Northeast end users to determine who provided MILSTRIP
training for the MRO program. One Naval Supply Systems Command end user stated
that the Command provided on-the-job training. The remaining five end users stated
that they did not receive MILSTRIP training from the contractor, but the contractor
trained them on the PurchasePlace. Therefore, the contractor did not train end users
on MILSTRIP.


Contractor Did Not Improperly Solicit Quotes and Proposals
or Identify Sources of Supplies
Under the terms of the MRO contract, the contractor did solicit quotes and proposals
from other companies and identify sources of supply for products and related services
ordered by end users, which are not inherently governmental functions. Additionally,
DLA Troop Support contracting officers made the required determinations that prices
proposed by the MRO contractor were fair and reasonable, and the DLA Troop Support
Compliance Division (the Compliance Division) and Headquarters Center of Excellence
for Pricing (COEP) provided the required oversight.

The contractor was responsible for soliciting competitive quotes from multiple
suppliers to fulfill end user requirements for MRO items and related incidental
services. Contractor personnel stated they conducted market research analysis12 to
identify potential suppliers who could fulfill the requirements for end users. For each
requirement, the contractor sent between 5 and 10 request for quotes to potential
suppliers who were identified from its market research analysis. Upon receipt of the
responses from suppliers, the contractor performed a price comparison of the quotes
to determine whether the quotes were reasonable.                                      After the price analysis, the
contractor provided DLA Troop Support contracting officers with two or more price
quotes, based on responses from potential suppliers, that the contractor determined
were reasonable.13 The MRO contract requires the contractor to maintain supporting


	12	
       The contractor used multiple ways to identify potential suppliers to fulfill end user requirements. For example,
       the contractor consulting with its procurement team and performing a query of its vendor database of more than
       8,000 suppliers.
	13	
       Price quotes submitted by the MRO contractor to DLA Troop Support generally consisted of two components: 1. the
       proposed invoice price the MRO contractor would pay to the manufacturer or supplier of the product, and 2. a fixed
       “distribution price” representing the typical expenses associated with the MRO contractor’s function and anticipated profit.



                                                                                                                                 DODIG-2013-143 │ 15
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



                 documentation of price quotes for a period of 3 years after the final payment. The
                 contracting officer conducted a review of the quotes and determined whether the
                 price quotes were fair and reasonable.

                 FAR 15.404-1, “Proposal Analysis Techniques,” requires contracting officers to evaluate
                 the reasonableness of an offered price, with adequate price competition normally
                 establishing fair and reasonable prices. The DLA Troop Support contracting officer
                 based the fair and reasonable price determination on the contractor providing two
                 or more quotes that were adequately competed.           DLA Troop Support contracting
                 officers considered the suppliers’ quotes as fair and reasonable if the quotes were
                 within 25 percent of each other.         Contractor personnel stated the price analysis
                 was restricted to this criterion, which ensures the request for quotes fall within the
                 definition of adequate competition. On November 15, 2012, the contractor confirmed
                 they assisted the DLA Troop Support contracting officer with the fair and reasonable
                 price determination.

                 The contractor provided DLA Troop Support personnel with supporting documentation
                 to assist with determining whether the quotes were fair and reasonable. Specifically,
                 the contractor provided a justification report that showed the price quotes received for
                 end user requirements and the contractor’s selection of the supplier, which normally
                 was the lowest bid. DLA Troop Support personnel verified that the contractor obtained
                 adequate competition for end user requirements and confirmed those price quotes that
                 the contractor provided were fair and reasonable.


                 Oversight Provided for Fair and Reasonable
                 Price Determination
                 Compliance Division and COEP personnel provided appropriate oversight for the fair
                 and reasonable price support. As required by DLAD Subpart 17.9507, “Post-Award
                 Actions and Management Oversight,” May 11, 2000, Compliance Division and DLA COEP
                 personnel provided oversight of the contractor functions through:

                         •	 DLA Troop Support contracting officer pre- and post-award analysis
                            and reviews;

                         •	 MRO Program Manager Monthly Post-Award Verification Audit; and

                         •	 Compliance Division and COEP quarterly, semiannual, and annual prime
                            vendor reviews or audits.




16 │ DODIG-2013-143
                  Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



DLA Troop Support contracting officers performed daily reviews of quotes that
contractor personnel provided. The purpose of the reviews was to verify that quotes
the contractor provided were fair and reasonable and MRO items were based on
adequate competition. The daily reviews validated that contracting officers analyzed
justification reports. For example, we validated the results of the contracting officer
reviews of 23 delivery orders performed from 2010 through 2012. For each review,
contracting officers made a fair and reasonable price determination based on
adequate competition between two or more independent suppliers.

The Chief, Integrated Support Team (IST), performed a monthly post-award pricing
review of the delivery orders that the contracting officer approved. This oversight
represented a higher-level review and approval of the contracting officer’s fair and
reasonable price determination of the contractor’s quotes received for line items
within a given delivery order.   After the completion of the post-award audit, the
Chief, IST, prepared a report indicating the number of line items reviewed and a
summary of the findings. The report categorized the results of the fair and reasonable
price determinations as properly documented, unsupported, and lacked appropriate
manager review.    Then, the Chief, IST, identified recommendations to improve the
findings. We evaluated the results of the Chief’s review of the 23 delivery orders that
consisted of 96 line items, valued at approximately $359,000. For these 23 delivery
orders, the Chief, IST, performed a review of a sample of line items as part of the
monthly post-award review and reported that the contracting officers’ fair and
reasonable price determinations were properly documented.

Compliance Division and COEP personnel performed quarterly and annual reviews
to examine the sufficiency of the contracting officers’ price documentation, the
contractor’s adherence to the pricing methodology, and whether the contractor
had a process in place to ensure that prices received from supply sources were fair
and reasonable. Based on quarterly and annual reviews, Compliance Division and
COEP personnel provided oversight of those functions the contractor performed. For
nine quarterly, six annual and two semiannual reports that the Compliance Division
and COEP performed from FY 2006 through FY 2011, they determined that the
contractor and the contracting officers’ methodology used to determine whether
quotes were fair and reasonable was consistent with requirements in the CMP.
Additionally, they validated that the contracting officers’ and contractor decisions




                                                                                      DODIG-2013-143 │ 17
Unsubstantiated Allegations Concerning Violations of Contract Laws and Regulations



                 for determining fair and reasonableness were sufficiently supported. The outcome of
                 those reports showed the contractor was in compliance for 9 of the 17 reviews
                 performed.   Compliance Division and COEP personnel made recommendations to
                 correct and improve the MRO program weaknesses when noncompliance occurred.


                 Summary
                 DLA Troop Support did not violate Federal laws and regulations cited in the
                 allegation forwarded to Defense Hotline.     Also, DLA Troop Support did not allow
                 the contractor to perform responsibilities that were inherently governmental.




18 │ DODIG-2013-143
                                                                                            Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from June 2012 through September 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objective.   We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

We reviewed the allegations concerning six MRO supply prime vendor contracts
awarded to the contractor. Specifically, we determined whether DLA Troop Support
violated Federal laws and regulations.       In addition, we evaluated whether DLA
Troop Support personnel allowed the contractor to perform responsibilities that are
inherently governmental functions. This audit was a focused review, based on the
allegations concerning the MRO contracts. Specifically, we focused on those provisions
of law and regulation that were most relevant to the allegations raised.

We worked with the DoD Office of Inspector General, Quantitative Methods
Division (QMD) to perform queries of the prime vendor monthly usage data that
contained more than a million line items to identify a region with the highest dollar
value and products and services ordered through storefront and nonstorefront
operations. Once we selected a region, QMD performed another query to identify end
users by Department of Defense Activity Address Codes that would provide the best
representation of dollar value, products, incidental services, and location that has a
storefront depot. The results of the queries showed that the Pacific and Southeast
ranked the highest in dollar values with a storefront depot in each region. However,
the Northwest ranked the lowest of all six regions with no storefront depot. Although
the complaint was made in the Northwest, the complainant allegations specifically
targeted all six regions based on the similarity of the contracts. Also, the complainant
allegations were based on the review of a contractor brochure, which discussed
the MRO program as a whole and not a specific region. We selected the Northeast
because it was a higher risk considering it included a storefront location. The
storefront locations accounted for more than 50 percent of total line items processed
and total dollar value. The Northeast also represented a balanced view in terms of
proximity, budget, representation of military services, products, incidental services,
storefront depot, and line items processed. We selected six Department of Defense
Activity Address Codes that represented ordering activities with the highest dollar



                                                                                       DODIG-2013-143 │ 19
Appendixes



                 value for products and services. We also selected nine end users in the Northeast to
                 assess allegations, such as the contractor assisting end users with identifying
                 requirements, training end users on the MILSTRIP system, and determine whether
                 DLA Troop Support provided oversight for services performed by contractors.

                 We conducted site visits to DLA Troop Support in Philadelphia, Pennsylvania;
                 Naval Facilities Engineering Command Mid-Atlantic in Virginia Beach, Virginia; and
                 Naval Amphibious Base Little Creek in Norfolk, Virginia. We conducted telephone
                 interviews with MRO officials at the Letterkenny Army Depot in Chambersburg,
                 Pennsylvania.     To assess the allegations, we interviewed end users and local DLA
                 and contractor representatives at the locations above to discuss their roles and
                 responsibilities. We conducted discussions with MRO management and contracting
                 officials at DLA Troop Support in Philadelphia, Pennsylvania, to gain an understanding
                 of their roles and responsibilities in managing and administering the program. We also
                 interviewed personnel located at the contractor’s headquarters in New Jersey.

                 To validate the accuracy of the allegations, we obtained and reviewed documentation
                 from 2010 through 2012 that we received from DLA Troop Support, the contractor, and
                 end users from the Northeast contract. In addition, we interviewed the complainant to
                 obtain clarification and to discuss the results of the allegation.

                 We reviewed and analyzed documentation between July 2002 and July 2012.
                 The documentation included:

                          •	 three revised CMP for contract administration and oversight;

                          •	 promotional brochures that the complainant based the allegation on;

                          •	 six MRO contracts mentioned in the allegations;

                          •	 modifications, technical proposals, request for supplies the end users used to
                             request items and services;

                          •	 contractor’s justification reports, purchase requests, and MIPR acceptances
                             for funding;

                          •	 pre- and post-award reviews, quarterly assessments that COEP conducted,
                             annual assessments conducted by the Compliance Division; and

                          •	 applicable regulations.




20 │ DODIG-2013-143
                                                                                             Appendixes



We also reviewed 20 delivery orders to assess whether the contractor worked with
the end users to define requirements and obtained adequate price competition. Further,
we reviewed the contractor’s justification reports for the delivery orders to verify
adequate competition, ensure the MIPR funding amount was accurate and approved,
and whether the end user requirements matched the quotes. Additionally, we selected
29 delivery orders to verify whether the end users paid for warranty items at the
same time of purchase and procured incidental services that were substantial and
segregable construction-related work.      Lastly, we requested the end users provide
documentation for supplies ordered that were for national defense purposes. Then, we
reviewed the six MRO contracts awarded to substantiate the allegations regarding the
violations of contracts laws.

We also reviewed the following guidance:

         •	 FAR, Subpart 7.5, “Inherently Governmental Functions,” March 2005;

         •	 Defense Federal Acquisition Regulation Supplement, Subpart 207.5,
            “Inherently Governmental Functions,” January 10, 2008;

         •	 Office of Management and Budget (OMB), Office of Federal Procurement
            Policy (OFPP) Policy Letter 11-01, “Performance of Inherently Governmental
            and Critical Functions,” September 12, 2011;

         •	 Defense Logistics Acquisition Directive, Subpart 17.9507, “Post Award Actions
            & Management Oversight,” May 11, 2000 (revised December 4, 2012);

         •	 Section 3142, title 40, United States Code;

         •	 Section 2304, title 10, United States Code;

         •	 Section 8302, title 41, United States Code;

         •	 Section 1517(a), title 31, United States Code; and

         •	 Public Law 112-81.


Use of Computer-Processed Data
We relied on computer-processed data from the DoD Electronic Document Access
system, KOP, contractor’s PurchasePlace, and the monthly usage data DLA Troop
Support provided.




                                                                                        DODIG-2013-143 │ 21
Appendixes



                 The DoD Electronic Document Access is a Web-based system that provides secure
                 online access, storage and retrieval of contracts and contract modifications to
                 authorized users throughout the DoD. We retrieved the six MRO contracts, contract
                 modifications, and delivery orders from the DoD Electronic Document Access system.

                 The KOP is a database that DLA Troop Support contracting officials uses for
                 Electronic Data Interchange (EDI) processing of acquisitions for the MRO Program.
                 The KOP is a one-stop shop for reviewing, awarding, approving all delivery orders,
                 conducting post-award reviews and audits, and maintaining a core list of items that
                 are typically procured.     We retrieved the contracting officers’ fair and reasonable
                 price determination, managers’ reviews of Categories 3 and 4 orders, and managers’
                 post‑award reviews and audits of the contracting officers’ fair and reasonable price
                 determination. See Appendix C for a discussion on the contracting officer’s manager
                 review of the categories.

                 PurchasePlace is the contractor’s electronic ordering system where end users are
                 assigned a level based on their purchasing authority to input their requirements and
                 the contractor supplies the items and requested incidental services by using a
                 searchable electronic catalog tailored to the end users. For the Northeast, we retrieved
                 the justification reports to match the end user requirements with the quotes that
                 the contractor solicited to fulfill the requirements and to determine whether the
                 contractor exercised adequate competition. In addition, we used the monthly usage
                 data from 2010 through 2012, which DLA Troop Support provided, to perform queries
                 to identify ordering activities with the highest dollar values, line items processed, and
                 whether a storefront depot exists.

                 We also obtained contract documentation (for example, MRO contracts, modifications,
                 justification reports, and pre- and post-award reviews) from audit sites, which we
                 compared to the information retrieved from Electronic Document Access, KOP, and
                 PurchasePlace with statements and documents we received during audit fieldwork to
                 verify the accuracy of the Electronic Document Access contract values.

                 We concluded that data collected from DoD Electronic Document Access, KOP, and
                 PurchasePlace were sufficiently reliable for the purpose of our analysis.




22 │ DODIG-2013-143
                                                                                           Appendixes



Use of Technical Assistance
We conducted discussions with personnel from QMD. We did not consult with QMD
to obtain a statistical or nonstatistical sample selection regarding the allegations.
Instead, we consulted with QMD to obtain recommended audit sites to validate the
accuracy for some of the allegations. In addition, we consulted with DoD OIG, Office of
General Counsel to interpret applicable guidance.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Office of Inspector General (DoD IG) issued four reports on
DLA Troop Support MRO program. Unrestricted GAO reports can be accessed over
the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.


GAO
GAO Report No. GAO-08-360, “Army Case Study Delineates Concerns With Use of
Contractors as Contract Specialists,” March 26, 2008


DoD IG
DoD IG Report No. DODIG-2012-098, “Controls Governing the Procurement Automated
Contract Evaluation System Need Improvement,” June 5, 2012

DoD IG Report No. D-2011-077, “Improved Management Can Reduce Costs of the
Maintenance, Repair, and Operations Prime Vendor Contract for the Republic of Korea,”
June 24, 2011

DoD IG Report No. D-2011-047, “Improvements Needed in Contract Administration
of the Subsistence Prime Vendor Contract for Afghanistan,” March 2, 2011




                                                                                      DODIG-2013-143 │ 23
Appendixes




                 Appendix B
                 Storefront and Nonstorefront Operations
                 DLA           Troop          Support            contracting           officers          issued        contract            modifications                for
                 three storefront locations:                              Anniston Army Depot (Southeast), Letterkenny Army
                 Depot (Northeast), and the Pentagon Washington Headquarters Services (Northeast).
                 DLA Troop Support also had a contract modification for a storefront location in Hawaii
                 (Pacific) that was closed and removed from the contract effective June 29, 2012.
                 Collectively, the three storefront locations processed more line items than the
                 nonstorefront locations.                           At the Letterkenny Army Depot, the contractor provided
                 inventory management, control, and distribution services for a specific list of MRO
                 goods identified and agreed upon between DLA Troop Support, the contractor, and
                 Letterkenny Army Depot.

                 DLA Troop Support provided a method for end users to order MRO items through a
                 nonstorefront operation. The figure below shows the nonstorefront ordering.

                 Figure. Nonstorefront Ordering Process
                                        End User determines
                                          requirement and               End User submits          PV solicits quotes from          End User reviews
                                             input into                  requirement to           suppliers. PV evaluates             quotes for
                                           PurchasePlace                   regional PV               and ranks quotes              budgetary reasons
                                       (PV Ordering System)



                                                           CO forwards                                                         End User initiates and submits
                          Finance loads                                              CO reviews MIPR for           Military Interdepartmental Purchase Request (MIPR)
                                                          MIPR to Finance
                        MIPR to Enterprise                                            scope and pricing               to Contracting Officer (CO) or Military Standard
                                                          Office for review
                      Business System (EBS)                                                                        Requisitioning & Issue Procedures (MILSTRIP) to PV
                                                          and acceptance



                                                          Delivery Order                                             CO conducts fair                  CO approves
                        Finance accepts                                                  Delivery Order
                                                             routed to                                                and reasonable                   Delivery Order
                      MIPR and forwards to                                          routed to KOP and EBS
                                                       Contracting Officer                                             (F&R) pricing                       in EBS
                        PV and End User               Portal (KOP) and EBS                                               and scope
                                                                                       (Locked in EBS)
                                                         simultaneously                                            determination reviews           (Unlocked in EBS)



                      CO basis for F&R pricing determination                       Flowchart Color Descriptions
                      1. PV provided competitive quotes                                Represents End User                                           Sales Order
                                                                                                                                                 and Purchase Orders
                      2. Comparison to GSA Schedules                                   Represents DLA Troop Support                                    created
                      3. Commercial catalog pricing                                    Represents Prime Vendor
                      4. Comparison to similar item
                      5. Historical pricing

                  *PV represents Prime Vendor
                  Source: DoD Office of Inspector General




24 │ DODIG-2013-143
                                                                                           Appendixes



According to DLA Troop Support personnel, an end user ordering through the
nonstorefront operation must first determine mission needs and obtain approval
from the base command. Once the end user determine mission needs as essential,
DLA Troop Support personnel stated the end user inputs requirements in
PurchasePlace, which is transferred to the contractor. The contractor explained that it
sends a request for quote to potential subcontractors and receives two or more quotes
in an effort to fulfill the end user requirements. The contractor stated and DLA Troop
Support agreed that once the contractor received the quotes, it evaluates and ranks the
quotes based on either the lowest priced or the quote that the prime vendor believed
would provide the best value to the Government. Then, DLA Troop Support personnel
stated the contractor recommends the quotes to the end user for acceptance. DLA
Troop Support personnel also stated the end user reviews the recommended quote and
evaluates the projected cost of items for budgetary reasons.

If the quotes are acceptable, the end user initiates and submits the MIPR to the
contracting officer. The contracting officer reviews the MIPR to validate whether the
end user requirements are within scope and pricing of the MRO program, and then
transmits the requirements to the Finance Office for review.        The Finance Office
will review the MIPR for completeness (line of accounting, specificity, and point of
contacts) and load the MIPR into the EBS. The EBS assigns a six digit alpha-numeric
code to the MIPR, in which the Finance Office accepts and assigns the MIPR code to
the end user and the vendor. If the end users use MILSTRIP, an obligated MILSTRIP
document number is provided to the prime vendor.

Whether the end user uses MIPR or MILSTRIP, once the MIPR code or obligated
MILSTRIP document number has been provided, the end user obligates funds and
the contractor routes or submits the delivery order to the KOP and to EBS
simultaneously.   The EBS blocks the delivery order until the contracting officer
conducts a fair and reasonable price determination.        Once the contracting officer
makes a fair and reasonable price determination, the delivery order is approved in
KOP and unblocked in EBS, then a sales order and purchase order is generated.

The purchase order obligates DLA Troop Support’s Defense Working Capital Funds
for MIPR and MILSTRIP. When the contractor delivers the items, a receipt is posted to
the purchase order. For MIPRs, DLA Troop Support will pay the vendor and record a
receivable for the end user. For MILSTRIP, DLA Troop Support will pay the vendor
and bill the end user. DLA Troop Support bills the end users against the MILSTRIP
document and receives payment.




                                                                                      DODIG-2013-143 │ 25
Appendixes




                 Appendix C
                 CMP Oversight Procedures
                 The contracting officers performs pre- and post-award reviews, such as determining
                 the fair and reasonableness of the prime vendor prices and ensuring MRO items are
                 based on adequate competition. The extent and timing of the contracting officers’ reviews
                 are based on the dollar value of line items. Specifically, the CMP described procedures
                 for the following four categories of which fair and reasonable prices and adequate
                 competition are determined:

                         •	 Category 1 consists of line items with an extended value of less than $2,500;

                         •	 Category 2 consists of line items with an extended value of $2,500 to $24,999;

                         •	 Category 3 consists of all line items with an extended value of $25,000 and
                            greater; and

                         •	 Category 4 consists of line items with incidental services.

                 All Category 1 line items are auto-awarded through the KOP with a statistical sampling
                 of line items that the contracting officers review on a monthly post-award basis. For
                 Category 2 line items, contracting officers conduct a 100 percent review to determine
                 whether prices were fair and reasonable. The 100 percent review includes a 30 percent
                 pre-award review and 70 percent post-award review. Additionally, 100 percent of the
                 line items in Categories 3 and 4 are also reviewed to determine the prices are fair and
                 reasonable before orders being processed. However, the KOP locks Category 4 line
                 items until a manager reviews the items.

                 After the contracting officer’s fair and reasonable price determination of MRO line
                 items prices, the Chief, IST, performs a higher-level review and approval of line
                 items the contracting officer approved.     The responsibilities for the Chief, IST, or
                 division chief include performing post‑award price verification audits on a monthly
                 basis. The audit consists of reviewing 100 percent of orders the contracting officer
                 approved to ensure that the file contains an adequate fair and reasonable price
                 determination.   Afterward, the division chief will prepare a report indicating the
                 number of files reviewed, compliant, challenged, and unsupported.          The division
                 chief will summarize the findings by category of all files in the audit sample that have
                 been challenged or unsupported and provide recommendations for improvement.
                 The Director of Supplier Operation will review the report, and the report is subject to
                 potential additional audit sampling of the files reviewed.         In addition, the KOP




26 │ DODIG-2013-143
                                                                                           Appendixes



will forward all orders that include incidental services (Category 4) directly to a
manager for 100 percent review to determine whether the prices were fair and
reasonable before processing the orders. Further, the contracting officer will forward
all line items with a fair and reasonable price determination, based on other than
adequate price competition for that same item, to the Chief, IST, or division chief for
higher-level approval.

The contractor’s MRO contracts are subject to continuous oversight through the
pricing reviews and audits that the Compliance Division and COEP conducted
quarterly, semiannually, and annually. The DLAD, revision 5, May 11, 2000, replaces
revision 4 and requires DLA Troop Support’s supply chain Contract Administration
and Compliance Division or Contract Review and Pricing Division to perform quarterly
contract audits.   Specifically, DLAD subpart 17.9507 states that the audit should
examine the sufficiency of the contracting officer’s price documentation, the vendor’s
adherence to the pricing methodology, and the vendor’s compliance with nonpricing
terms. Following DLA Troop Support’s review, personnel furnish a copy of the report
to DLA COEP no later than 45 days after the end of the quarter. To comply with
this requirement, DLA Troop Support completed its reviews for FYs 2007 and 2008.
However, in mid-2008, the DLA Senior Procurement Executive directed a headquarters
team instead of DLA Troop Support to perform the pricing portion of the annual
reviews. DLAD subpart 17.9507 was updated shortly thereafter to reflect this change
in review ownership, which was effective beginning with the FY 2009 assessment
cycle.   Therefore, the Compliance Division does not perform the annual reviews.
The Compliance Division transferred its responsibility to DLA Headquarters COEP, and
DLA COEP personnel conducted the reviews in FYs 2009, 2010, and 2012.

DLA COEP personnel did not complete a review in FY 2011 because during the
FY 2010 review, DLA COEP found that the contractor had a DCMA approved
purchasing system and determined that a review for FY 2011 was not necessary.
Further, since DLA COEP found the contractor to be compliant during the FY 2010
review and the contractor had a DCMA approved purchasing system, the Compliance
Division considered these factors during the risk assessment for the FY 2011
assessment plan.    Additionally, DLA COEP personnel performed quarterly reports,
which began in the third quarter of FY 2008.       Since the third quarter FY 2010,
DLA COEP personnel performed reviews for the prime vendor program on a
semiannual basis and examined the sufficiency of the contracting officers’ price
documentation and the vendor’s adherence to the pricing methodology as required
by the contract terms, the contract management plan, and the approved prime vendor
pricing model.



                                                                                      DODIG-2013-143 │ 27
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                          ADA Antideficiency Act
                          CICA Competition in Contracting Act
                          CMP Contract Management Plan
                         COEP Headquarters Center of Excellence for Pricing
                           DLA Defense Logistics Agency
                         DLAD Defense Logistics Acquisition Directive
                           EBS Enterprise Business System
                           FAR Federal Acquisition Regulation
                            IST Integrated Support Team
                           KOP Contracting Officer Portal
                         MIPR Military Interdepartmental Purchase Request
                      MILSTRIP Military Standard Requisitioning and Issue Procedures
                          MRO Maintenance, Repair, and Operations
                         NDAA National Defense Authorization Act




28 │ DODIG-2013-143
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
